PROOF OF SERVICE
COURT NAME:

In the Supreme Court of the United States

CASE NUMBER:

20-617

CASE NAME:

California Virtual Academies v. California Public
Employment Relations Board

I declare that I am a resident of or employed in the County of Sacramento,
State of California. I am over the age of 18 and not a party to the within entitled
cause. I am an employee of the Public Employment Relations Board, 103118th
Street, Sacramento, California 95811.
On December 3, 2020, I served the Waiver regarding the above-referenced
case on the parties listed below:
Paul C. Minney, Attorney
Young, Minney & Corr, LLP
655 University Ave., Ste . 150
Sacramento, CA 95825
Attorney for Petitioner,
California Virtual Academies
[X]

Jacob Rukeyser, Attorney
California Teachers Association
1705 Murchison Dr.
Burlingame, CA 94010
Attorney for Real Party in Interest,
California Teachers Association

(BY UNITED STATES MAIL) I enclosed the document(s) in a sealed
envelope or package addressed to the person(s) at the address(es) above and
placed the envelope for collection and mailing, following our ordinary
business practices. I am readily familiar with this business's practice for
collecting and processing correspondence for mailing. On the same day that
correspondence is placed for collection and mailing, it is deposited in the
ordinary course of business with the United States Postal Service, in a
sealed envelope with postage fully prepaid. The envelope or package was
placed in the mail at Sacramento, California.

I declare under penalty of perjury of the laws of the State of California that
the foregoing is true and correct and that this declaration was executed on
December 3, 2020 at Sacramento, California.
S. Taylor
(Type or print name)

